Nos. 20-37 and 20-38

In the Supreme Court of the United States
NORRIS COCHRAN, ACTING SECRETARY OF
HEALTH AND HUMAN SERVICES, ET AL., PETITIONERS
v.
CHARLES GRESHAM, ET AL.
STATE OF ARKANSAS, PETITIONER
v.
CHARLES GRESHAM, ET AL.
ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

MOTION TO VACATE THE JUDGMENTS OF THE
COURT OF APPEALS AND REMAND, TO REMOVE THE
CASES FROM THE MARCH 2021 ARGUMENT CALENDAR,
AND TO HOLD FURTHER BRIEFING IN ABEYANCE
PENDING DISPOSITION OF THIS MOTION
ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

In the Supreme Court of the United States
No. 20-37
NORRIS COCHRAN, ACTING SECRETARY OF
HEALTH AND HUMAN SERVICES, ET AL., PETITIONERS
v.

CHARLES GRESHAM, ET AL.
No. 20-38
STATE OF ARKANSAS, PETITIONER
v.

CHARLES GRESHAM, ET AL.
ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

MOTION TO VACATE THE JUDGMENTS OF THE
COURT OF APPEALS AND REMAND, TO REMOVE THE
CASES FROM THE MARCH 2021 ARGUMENT CALENDAR,
AND TO HOLD FURTHER BRIEFING IN ABEYANCE
PENDING DISPOSITION OF THIS MOTION

Pursuant to this Court’s Rule 21.2(b), the Acting Solicitor General, on behalf of petitioners in No. 20-37, respectfully moves that the Court vacate the judgments
of the court of appeals and remand with instructions
that the underlying matters be remanded to the Secretary of Health and Human Services (HHS); remove the
cases from the March 2021 argument calendar; and,
pending the Court’s disposition of this motion, hold further briefing in abeyance.
(1)

2
1. These cases concern actions by the Secretary to
approve “demonstration project[s]” under the Medicaid
program, 42 U.S.C. 1315(a)—time-limited experiments
to test variations from the statutory requirements for
States’ Medicaid plans. Section 1315(a) authorizes the
Secretary to approve any “demonstration project
which, in the judgment of the Secretary, is likely to assist in promoting the objectives” of Medicaid. Ibid. At
issue are amendments approved by the Secretary in
2018 to existing demonstration projects in Arkansas
and New Hampshire designed to test (inter alia) requirements that condition continued Medicaid coverage
of certain adults on their performing a specified number
of hours per month of work or certain other related activities. Gov’t Br. 14-16.
Individual Medicaid beneficiaries in both Arkansas
and New Hampshire brought these suits challenging the
Secretary’s approvals of those projects. The States intervened to defend HHS’s actions. The district court
ruled for the plaintiffs in each case and vacated the Secretary’s approvals. Gov’t Br. 18-19; 20-37 Pet. App. (Pet.
App.) 22a-59a, 64a-102a.
The court of appeals affirmed in separate decisions.
Pet. App. 1a-19a, 20a-21a. In Gresham, addressing the
Arkansas project, the court concluded (in relevant
part) that Section 1315 did not authorize the Secretary
to approve the demonstration project testing the workrelated requirements. Id. at 9a-16a. The court held that
“the principal objective of Medicaid is providing health
care coverage,” but that the Secretary had improperly
focused on promoting other, “alternative objectives,”
such as “ ‘improving health outcomes.’ ” Id. at 9a-10a,
12a (citation omitted). The court rejected the government’s contention that the requirements were designed to

3
promote the provision of health-care coverage by facilitating the transition of Medicaid beneficiaries to other coverage and improving their health. Id. at 13a-16a; see id.
at 16a-19a (holding approval arbitrary and capricious).
In light of the court of appeals’ decision in Gresham,
the government moved unopposed for summary affirmance in Philbrick (concerning New Hampshire’s project), without prejudice to seeking further review.
19-5293 Gov’t C.A. Mot. for Summ. Affirmance 1-5. The
court granted that motion. Pet. App. 20a-21a.
The government filed a petition for a writ of certiorari under Rule 12.4 to review the court of appeals’ decisions in Gresham and Philbrick. 20-37 Pet. 1-35. New
Hampshire supported that petition as to Philbrick.
Cert. Br. 1-3. Arkansas filed a petition seeking review
in Gresham. 20-38 Pet. 1-31. This Court granted both
petitions and consolidated the cases. Opening briefs
were filed on January 19, 2021.
2. The Arkansas and New Hampshire demonstration
projects are among more than a dozen projects including
work-related requirements that either have been approved by or are pending before HHS. Gov’t Br. 15 &
n.6. However, none of those projects’ work-related requirements is currently operative. Arkansas was the
only State to begin disenrolling beneficiaries for failing
to satisfy its work-related requirements, and that implementation was halted in March 2019 following the district court’s decision in Gresham. Pet. App. 6a. Since
then, the COVID-19 pandemic has made implementing
such requirements infeasible. In addition, implementation of such requirements is effectively precluded by legislation enacted in March 2020 that conditions a State’s
receipt of an increase in federal Medicaid funding during

4
the pandemic on its maintaining certain existing Medicaid parameters. Families First Coronavirus Response
Act. Pub. L. No. 116-127, Div. F, § 6008(a) and (b),
134 Stat. 208; 42 C.F.R. 433.400(c)(2). This Office is informed by HHS that every State has accepted that increased funding and thus currently cannot implement
work-related requirements like those in Arkansas and
New Hampshire.
3. On February 12, 2021, HHS sent letters to Arkansas, New Hampshire, and other States with previously approved demonstration projects that include
work-related requirements informing them that HHS
has begun a process of determining whether to withdraw approval of those requirements. E.g., Letter from
Elizabeth Richter, Acting Administrator, Centers for
Medicare & Medicaid Servs. (CMS), HHS, to Dawn
Stehle, Director, Arkansas Medicaid 1-2 (Feb. 12, 2021)
(Arkansas Letter), https://go.usa.gov/xs4xu; Letter
from Elizabeth Richter, Acting Administrator, CMS,
HHS, to Lori Shibinette, Commissioner, New Hampshire Dep’t of Health & Human Servs. 1-2 (Feb. 12, 2021)
(New Hampshire Letter), https://go.usa.gov/xs4aq.
HHS explained that it “has the authority and responsibility to maintain continued oversight of demonstration projects in order to ensure that they are currently
likely to assist in promoting the objectives of Medicaid”
and that HHS may withdraw approval of a project that
it finds “ ‘is not likely to achieve the statutory purposes.’ ”
Arkansas Letter 1 (quoting 42 C.F.R. 431.420(d)(2) and
citing 42 U.S.C. 1315(d)(2)(D)); see Exec. Order No.
14,009, § 3(a)(ii), 86 Fed. Reg. 7793 (Feb. 2, 2021) (following the change in Administration, directing HHS to
“review” existing demonstration projects that “may re-

5
duce coverage under or otherwise undermine Medicaid,” particularly given the pandemic). HHS further
explained that it “has serious concerns about testing
policies that create a risk of a substantial loss of health
care coverage in the near term” in light of the
COVID-19 pandemic and its adverse effects on Medicaid beneficiaries’ health, economic opportunities, and
access to transportation and affordable child care. Arkansas Letter 1. Those effects, HHS continued, “have
greatly increased the risk that implement[ing]” workrelated requirements “will result in unintended coverage loss.” Id. at 2; see New Hampshire Letter 1-2.
HHS informed each State that it has “preliminarily
determined that allowing” work-related requirements
“to take effect in” the States “would not promote the
objectives of the Medicaid program,” and that it is
“commencing a process of determining whether to withdraw” approval for those requirements. Arkansas Letter 2; New Hampshire Letter 2. HHS invited each
State to submit any additional information that in the
State’s view would warrant not withdrawing approval
for work requirements within 30 days. Ibid. HHS explained that, if it ultimately determines to withdraw its
approval of a State’s work-related requirements, it will
notify the State and afford it an opportunity for a hearing to challenge that determination before it takes effect. Ibid.
4. In light of this intervening development, the government respectfully submits that these cases no longer
present a suitable context for the Court to address the
question presented concerning the scope of the Secretary’s authority to approve the Arkansas and New
Hampshire demonstration projects under 42 U.S.C.

6
1315. The work-related requirements were the principal focus of the litigation and decisions below. HHS has
now made a preliminary determination that allowing
work-related requirements to take effect in Arkansas
and New Hampshire would not promote the objectives
of the Medicaid program and has commenced a process
to determine whether to withdraw its approvals of those
requirements. The agency actions under review in this
Court have accordingly been overtaken by these
changed circumstances. In addition, the approval of Arkansas’s work-related requirements will expire by its
own terms on December 31, 2021. Arkansas Letter 1.
The government respectfully submits that the appropriate course for the Court in such greatly changed
circumstances is to vacate the judgments of the court of
appeals and remand. Cf., e.g., Madison Cnty. v. Oneida
Indian Nation of New York, 562 U.S. 42, 43 (2011) (per
curiam) (vacating and remanding in light of “new factual development”); Department of Justice v. City of
Chicago, 537 U.S. 1229 (2003) (intervening statute).
The cases should be remanded with instructions that
the underlying matters be remanded to the Secretary,
so that the agency may complete the review process it
has commenced and determine the appropriate path
forward in the first instance, exercising the “judgment”
Congress expressly vested in the agency with respect to
demonstration projects. 42 U.S.C. 1315(a).
That course is especially warranted here because the
decisions below, and particularly the court of appeals’
decision in Gresham, have created uncertainty about
the scope of the Secretary’s authority to approve
demonstration projects under Section 1315. The government previously argued (Br. 35-43) that the
Gresham decision threatens to significantly curtail the

7
Secretary’s authority. The private respondents have
argued (e.g., Br. in Opp. 22-23, 25-26; Br. 23, 49) that the
decision should not be construed to restrict the Secretary’s authority in the manner suggested by the government. Because these cases no longer present a suitable
context for this Court to review that decision on the
merits, the judgments below should be vacated to clear
the path for the agency to determine and implement appropriate further action.
For similar reasons, the government respectfully
submits that the cases should be removed from the
Court’s March 2021 argument calendar, and that further briefing be held in abeyance pending the Court’s
disposition of this motion.
5. We are authorized to state that the private respondents consent to the relief requested in this motion; New
Hampshire takes no position; and Arkansas opposes and
intends to file a response.
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General

FEBRUARY 2021

